                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 109070034                                                                       Page 1 of 1



                 We received allegations that an NSF awardee l and its employees had engaged in various
         forms of fraudulent conduct, including but not limited to false reporting to NSF, misuse of personal
         time off, false travel expense reports and missing receipts, excessive personal vehicle usage,
         purchase of personal items using federal funds, waste offederal funds on vehicle procurements and
         dispositions, mischarging of education and outreach expenses, and mischarging of bid and proposal
         costs.

                 In coordination with another federal agency OIG2 and a U.S. Attorney's Office,3 we
         subpoenaed documents from the organization and interviewed former employees. The documents
         contained no obvious indicators of fraud, and the former employees failed to substantiate the
         allegations and in some cases directly contradicted them.

                 Because the documents did, however, contain some unexplained financial anomalies, we
         interviewed several current leaders and employees of the organization. The employees provided
         credible explanations for the anomalous data and for the balance of the allegations. We concluded,
         along with the Assistant United States Attorney involved in the case, that insufficient evidence
         existed to substantiate the allegations and support a civil fraud action.

                   Accordingly, this case is closed, with no further action taken.




NSF O]G Fonn 2 (11102)
